United States Court of Appeals
For the First Circuit
No. 18-1996
LISA BIRON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.
Before
Howard, Chief Judge.
Torruella and Kayatta, Circuit Judges.
JUDGMENT
Entered: May 2, 2019
Since time limits in F.R.A.P. 4(a) are jurisdictional and not subject to equitable exceptions,
Bowles v. Russell. 551 U.S. 205, 214 (2007), this court lacks jurisdiction to hear this appeal.
Dismissed.
By the Court:
Maria R. Hamilton, Clerk
cc:
Lisa Biron
Seth R. Aframe

A-3 8

United States Court of Appeals
For the First Circuit
No. 18-2226
LISA BIRON,
Petitioner - Appellant,
v.
UNITED STATES
Respondent - Appellee.

Before
Howard, Chief Judge,
Torruella and Kayatta, Circuit Judges.

JUDGMENT
Entered: May 2, 2019
Since the government was a party to the habeas proceeding, appellant had 60 days from
the entry of judgment to appeal that proceeding and another 30 days after to seek an extension of
. the time to appeal. See F.R.A.P. 4(a) (5) (A) (a district court may extend the time for filing a notice
of appeal if, inter alia, "a party so moves no later than 30 days after the time prescribed by this
Rule 4(a) expires"). Since her motion for an extension of time to file an appeal was filed after this
period, it was properly denied.
Affirmed. 1st Cir. Loc. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk
cc:
Lisa Biron
Seth R. Aframe

United States Court of Appeals
For the First Circuit
No. 18-1996
LISA BIRON,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.
Before
Howard, Chief Judge.
Lynch, Thompson, Kayatta
and Barron, Circuit Judges.
ORDER OF COURT
Entered: November 12, 2020
The petition for rehearing having been denied by the panel ofjudges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the. judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and petition for rehearing en banc be denied.
By the Court:
Maria R. Hamilton, Clerk

cc:

Lisa Biron
Seth R. Aframe

A' 40

<**

United States Court of Appeals

*

For the First Circuit

\

No. 18-2226
LISA BIRON,
Petitioner -.Appellant,
v.
UNITED STATES,
Respondent - Appellee.
Before
Howard, Chief Judge.
Lynch, Thompson, Kayatta
and Barron, Circuit Judges.
ORDER OF COURT
Entered: November 12, 2020
The petition for rehearing having been denied by the panel ofjudges who decided the case,
and the petition for rehearing en banc having been submitted to the active judges of this court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rehearing and petition for rehearing en banc be denied.
. By the Court:
Maria R. Hamilton, Clerk ,

cc:
LisaBiron
Seth R. Aframe

A-41

1* '•.

▼

18 US.C_
§ 2251. Sexual exploitation of children
(a) Any person who employs, uses, persuades, induces, entices, or coerces any minor to engage in,
or who has a minor assist any other person to engage in, or who transports any minor in or affecting
interstate or foreign commerce, or in any Territory or Possession of the United States, with the intent that
such minor engage in, any sexually explicit conduct for the purpose of producing any visual depiction of
such conduct or for the purpose of transmitting a live visual depiction of such conduct, shall be punished
as provided under subsection (e), if such person knows or has reason to know that such visual depiction
will be transported or transmitted using any means or facility of interstate or foreign commerce or in or
affecting interstate or foreign commerce or mailed, if that visual depiction was produced or transmitted
using materials that have been mailed, shipped, or transported in or affecting interstate or foreign
commerce by any means, including by computer, or if such visual depiction has actually been
transported or transmitted using any means or facility of interstate or foreign commerce or in or affecting
interstate or foreign commerce or mailed.

uses

1

. © 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

%-a
12775049

rJ

.'

\QUSl.
§ 2423. Transportation of minors
(a) Transportation with intent to engage in criminal sexual activity.
A person who knowingly transports an individual who has not attained the age of 18 years in
interstate or foreign commerce, or in any commonwealth, territory or possession of the United
States, with intent that the individual engage in prostitution, or in any sexual activity for which
any person can be charged with a criminal offense, shall be fined under this title and imprisoned
not less than 10 years or for life.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

4M
12775048

*•.1

1% U-S A
§ 1651. Writs
(a) The Supreme Court and all courts established by Act of Congress may issue all writs necessary
or appropriate in aid of their respective jurisdictions and agreeable to the usages and principles of law.
(b) An alternative writ or rule nisi may be issued by a justice or judge of a court which has'
jurisdiction.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

m-A
12775049

2.8 U,S£*
§ 2071. Rule-making power generally .
(a) The Supreme Court and all courts established by Act of Congress may from time to time
prescribe rules for the conduct of their business. Such rules shall be consistent with Acts of Congress
and rules of practice and procedure prescribed under section 2072 of this title [28 USCS § 2072].

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNcxis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

H5-A
12775049

£8U-S.£.

.

§ 2107. Time for appeal to court of appeals
(a) Except as otherwise provided in this section, no appeal shall bring any judgment, order or decree
in an action, suit or proceeding of a civil nature before a court of appeals for review unless notice of
appeal is filed, within thirty days after the entry of such judgment, order or decree.
(b) In any such action, suit, or proceeding, the time as to all parties shall be 60 days from such entry
if one of the parties is—
■ (1) the United States;
(2) a United States agency;
■ (3) a United States officer or employee sued in an official capacity; or
(4) a current or former United States officer or employee sued in an individual.capacity for an act
or omission occurring in connection with duties performed on behalf of the United States, including all
instances in which the United States represents that officer or employee when the judgment, order, or
decree is entered or files the appeal for that officer or employee.
(c) The district court may, upon motion filed not later than 30 days after the expiration of the time
otherwise set for bringing appeal, extend the time for appeal upon a showing of excusable neglect or
good cause. In addition, if the district court finds—
(1) that a party entitled to notice of the entry of a judgment or order did not receive such notice
from the clerk or any party within 21 days of its entry, and
(2) that no party would be prejudiced,

the district court may, upon motion filed within 180 days after entry of the judgment or order
or within 14 days after receipt of such notice, whichever is earlier, reopen the time for appeal for a
period of 14 days from the date of entry of the order reopening the time for appeal.
(d) This section shall not apply to bankruptcy matters or other proceedings under Title 11.
HISTORY:

Act June 25, 1948, ch 646, 62 Stat. 963; May 24, 1949, ch 139, §§ 107, 108, 63 Stat. 104, 105;
Nov. 6, 1978, P. L. 95-598, Title II, § 248, 92 Stat. 2672; Dec. 9, 1991, P. L. 102-198, § 12, 105
Stat. 1627; May 7, 2009, P. L. 111-16, § 6(3), 123 Stat. 1608; Nov. 29, 2011, P. L. 112-62, § 3,
125 Stat. 757.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

12775049

1S> IU3.C,
§ 2253. Appeal
(a) In a habeas corpus proceeding or a proceeding under section 2255 [28 USCS § 2255] before a
district judge, the final order shall be subject to review, on appeal, by the court of appeals for the circuit
in which the proceeding is held.
(b) There shall be no right of appeal from a final order in a proceeding to test the validity of a warrant
to remove to another district or place for commitment or trial a person charged with a criminal offense
against the United States, or to test the validity of such person’s detention pending removal proceedings.

(c) (1) Unless a circuit justice or judge issues a certificate of appealability, an appeal may not be
taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding in which the detention complained of
arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255 [28 USCS § 2255].
(2) A certificate of appealability may issue under paragraph (1) only if the applicant has made a
substantial showing of the denial of a constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate which specific issue or
issues satisfy the showing required by paragraph (2).

HISTORY:
Act June 25, 1948, .ch 646, 62 Stat. 967; May 24, 1949, ch 139, § 113, 63 Stat. 105; Oct. 31,
1951, ch 655, § 52, 65 Stat. 727; April 24, 1996, P. L. 104-132, Title I, § 102, 110 Stat. 1217.

USCS

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this.product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

41-A
12775049

18 W-^L
§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right
to be released upon the ground that the sentence was imposed in violation of the Constitution or laws of
the United States, or that the court was without jurisdiction to impose such sentence, or that the sentence
was in excess of the maximum authorized by law, or is otherwise subject to collateral attack, may move
the court which imposed the sentence to vacate, set aside or correct the sentence.
(bj Unless the motion and the files and records of the case conclusively show that the prisoner is
entitled to no relief, the court shall cause notice thereof to be served upon the United States attorney,
grant a prompt hearing thereon, determine the issues and make findings of fact and conclusions of law
with respect thereto. If the court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack, or that there has
been such a denial or infringement of the constitutional rights of the prisoner as to render the judgment
vulnerable to collateral attack, the court shall vacate and set the judgment aside and shall discharge the
prisoner or resentence him or grant a new trial or correct the sentence as may appear appropriate.
(c) A court may entertain and determine such motion without requiring the production of the prisoner
at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the motion as from the
final judgment on application for a writ of habeas corpus.

uses

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use ofthis product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

48-A
12775049

Fed-

App. P.

Rule 3. Appeal as of Right—How Taken
(a) Filing the Notice of Appeal.
(1) An appeal permitted by law as of right from a district court to a court of appeals may
be taken only by filing a notice of appeal with the district clerk within the time allowed by Rule 4.
At the time of filing, the appellant must furnish the clerk with enough copies of the notice to
enable the clerk to comply with Rule 3(d).
(2) An appellant’s failure to take any step other than the timely filing of a notice of appeal
does not affect the validity of the appeal, but is ground only for the court of appeals to act as it
considers appropriate, including dismissing the appeal:
(3) An appeal from a judgment by a magistrate judge in a civil case is taken in the same
way as an appeal from any other district court judgment.
(4) An appeal by permission under 28 U.S.C. § 1292(b) or an appeal in a bankruptcy case
may be taken only in the manner prescribed by Rules 5 and 6, respectively.

USCSRULE

1

© 2021 Matthew Bender & Company. Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

4 q-A
12775048

Ced-

Afp- P.

Rule 4. Appeal as of Right—When Taken
(a) Appeal in a Civil Case.
(1) Time for Filing a Notice of Appeal.
(A) In a civil case, except as provided in Rules 4(a)(1)(B), 4(a)(4), and 4(c), the.
notice of appeal required by Rule 3 must be filed with the district clerk within 30 days after entry
of the judgment or order appealed from.
(B) The notice of appeal may be filed by any party within 60 days after entry of the
judgment or order appealed from if one of the parties is:
(i) the United States;
(ii) a United States agency;
(iii) a United States officer or employee sued in an official capacity; or
(iv) a current or former United States officer or employee sued in an
individual capacity for an act or omission occurring in connection with duties performed on the
United States’ behalf—including all instances in which the United States represents that person
when the judgment or order is entered or files the appeal for that person.
(C) An appeal from an order granting or denying an application for a writ of error
coram nobis is an appeal in a civil case for purposes of Rule 4(a).

USCSRULE

1

© 2021 Matthew Bender & Company, Inc,, a member of the LexisNexis Group. AH rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

5oA
12775049

i

1

r^d. iApp.p.
Rule 22. Habeas Corpus and Section 2255 Proceedings
(a) Application for the Original Writ. An application for a writ of habeas corpus must be
made to the appropriate district court. If made to a circuit judge, the application must be
transferred to the appropriate district court. If a district court denies an application made or
transferred to it, renewal of the application before a circuit judge is not permitted. The applicant
may, under 28 U.S.C. § 2253, appeal to the court of appeals from the district court’s order
denying the application.
(b) Certificate of Appealability.
(1) In a habeas corpus proceeding in which the detention complained of arises from
process issued by a state court, or in a 28 U.S.C. § 2255 proceeding, the applicant cannot take an
appeal unless a circuit justice or a circuit or district judge issues a certificate of appealability under
28 U.S.C. § 2253(c). If an applicant files a notice of appeal, the district clerk must send to the
court of appeals the certificate (if any) and the statement described in Rule 11(a) of the Rules
Governing Proceedings Under 28 U.S.C. § 2254 or § 2255 (if any), along with the notice of
appeal and the file of the district-court proceedings. If the district judge has denied the certificate,
the applicant may request a circuit judge to issue it.
(2) A request addressed to the court of appeals may be considered by a circuit judge or
judges, as the court prescribes. If no express request for a certificate is filed, the notice of appeal
constitutes a request addressed to the judges of the court of appeals.
(3) A certificate of appealability is not required when a state or its representative.or the
United States or its representative appeals.
HISTORY: As amended April 24, 1996, P. L. 104-132, Title I, § 103, 110 Stat. 1218; April 24,
1998, eff. Dec. 1, 1998; March 26, 2009, eff. Dec. 1, 2009.
I

USCSRULE

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

S\-A

12775049

« J

R. Gov, fro. tbnjuer.
■i

Z.Z55

‘

Rule 11. Certificate of Appealability; Time to Appeal

C\

(a) Certificate of appealability. The district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant. Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should issue. If the
court issues a certificate, the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2). If the court denies a certificate, a party may not appeal the
denial but may seek a certificate from the court of appeals under Federal Rule of Appellate
Procedure 22. A motion to reconsider a denial does not extend the time to appeal,
(b) Time to appeal. Federal Rule of Appellate Procedure 4(a) governs the time to appeal an
order entered under these rules. A timely notice of appeal must be filed even if the district court
issues a certificate of appealability. These rules do not extend the time to appeal the original
judgment of conviction.
HISTORY: Amended April 30, 1979, effective Aug. 1, 1979; April 26, 2004, eff. Dec. 1, 2004;
March 26, 2009, eff. Dec. 1, 2009.

HISTORY; ANCILLARY LAWS AND DIRECTIVES
Other provisions:
Notes of Advisory Committee on Rules Rule 11 is intended to make clear that, although a § 2255
action is a continuation of the criminal case, the bringing of a § 2255 action does not extend the time.
Notes of Advisory Committee on Aug. 1, 1979 amendments. Prior to the promulgation of the
Rules Governing Section 2255 Proceedings, the courts consistently held that the time for appeal in a
section 2255 case is as provided in Fed.R.App.P. 4(a), that is, 60 days when the government is a party,
rather than as provided in appellate rule 4(b), which says that the time is 10 days in criminal cases. This
result has often been explained on the ground that rule 4(a) has to do with civil cases and that
"proceedings under section 2255 are civil in nature.” E.g., Rothman v. United States, 508 F.2d 648 (3d
Cir. 1975). Because the new section 2255 rules.are based upon the premise "that a motion under § 2255
is a further step in the movant’s criminal case rather than a separate civil action," see Advisory
Committee Note to rule 1, the question has arisen whether the new rules have the effect of shortening
the time for appeal to that provided in appellate rule 4(b). A sentence has been added to rule 11 in order
to make it clear that this is not the case.

USCSRULE

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

o _a

12775049

